<html>
<title> - NASA CYBERSECURITY: AN EXAMINATION OF THE AGENCY'S INFORMATION SECURITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                          NASA CYBERSECURITY:
                     AN EXAMINATION OF THE AGENCY'S
                          INFORMATION SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON INVESTIGATIONS
                             AND OVERSIGHT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                      WEDNESDAY, FEBRUARY 29, 2012

                               __________

                           Serial No. 112-64

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
72-919                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4522352a05263036312d2029356b262a286b">[email&#160;protected]</a>  

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               MARCIA L. FUDGE, Ohio
RANDY NEUGEBAUER, Texas              BEN R. LUJAN, New Mexico
MICHAEL T. McCAUL, Texas             PAUL D. TONKO, New York
PAUL C. BROUN, Georgia               JERRY McNERNEY, California
SANDY ADAMS, Florida                 JOHN P. SARBANES, Maryland
BENJAMIN QUAYLE, Arizona             TERRI A. SEWELL, Alabama
CHARLES J. ``CHUCK'' FLEISCHMANN,    FREDERICA S. WILSON, Florida
    Tennessee                        HANSEN CLARKE, Michigan
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

              Subcommittee on Investigations and Oversight

                   HON. PAUL C. BROUN, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         PAUL D. TONKO, New York
    Wisconsin                        ZOE LOFGREN, California
SANDY ADAMS, Florida                 BRAD MILLER, North Carolina
RANDY HULTGREN, Illinois             JERRY McNERNEY, California
LARRY BUCSHON, Indiana               EDDIE BERNICE JOHNSON, Texas
DAN BENISHEK, Michigan
VACANCY
RALPH M. HALL, Texas


                            C O N T E N T S

                      Wednesday, February 29, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Paul C. Broun, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    13
    Written Statement............................................    14

Statement by Representative Paul Tonko, Ranking Minority Member, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    15
    Written Statement............................................    17

                               Witnesses:

Ms. Linda Y. Cureton, Chief Information Officer, NASA
    Oral Statement...............................................    19
    Written Statement............................................    21

The Honorable Paul K. Martin, Inspector General, NASA
    Oral Statement...............................................    25
    Written Statement............................................    27

Discussion
  ...............................................................    37

              Appendix: Answers to Post-Hearing Questions

Ms. Linda Y. Cureton, Chief Information Officer, NASA............    48

The Honorable Paul K. Martin, Inspector General, NASA............    61



                          NASA CYBERSECURITY:
          AN EXAMINATION OF THE AGENCY'S INFORMATION SECURITY

                              ----------                              


                      WEDNESDAY, FEBRUARY 29, 2012

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:33 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Paul Broun 
[Chairman of the Subcommittee] presiding.

[GRAPHIC] [TIFF OMITTED] T2919.041

[GRAPHIC] [TIFF OMITTED] T2919.001

[GRAPHIC] [TIFF OMITTED] T2919.002

[GRAPHIC] [TIFF OMITTED] T2919.003

[GRAPHIC] [TIFF OMITTED] T2919.004

[GRAPHIC] [TIFF OMITTED] T2919.005

[GRAPHIC] [TIFF OMITTED] T2919.006

[GRAPHIC] [TIFF OMITTED] T2919.007

[GRAPHIC] [TIFF OMITTED] T2919.008

[GRAPHIC] [TIFF OMITTED] T2919.009

[GRAPHIC] [TIFF OMITTED] T2919.010

    Chairman Broun. Subcommittee on Investigations and 
Oversight will come to order.
    Good afternoon, everyone. I appreciate everybody's 
patience. We just had votes on the Floor, so I appreciate you 
all's patience to the beginning of this hearing.
    I want to welcome you all to the hearing entitled, ``NASA 
Cybersecurity: An Examination of the Agency's Information 
Security.'' You will find in front of you packets containing 
our witness panel's testimony, their biographies, and truth in 
testimony disclosures. I want to welcome our witnesses here 
today.
    I am going to begin by recognizing myself for five minutes 
for an opening statement.
    The topic of cybersecurity is certainly hot these days. As 
Washington debates the government's appropriate role in private 
sector cybersecurity activities, we should remember that the 
government is already responsible for securing its own networks 
and information, a task that is executed with mixed successes.
    While the defense and intelligence communities take great 
steps to protect data and operations from theft and corruption, 
oftentimes civil agencies are not as vigilant. In many 
instances this is for good reason. Transparency, coordination, 
and collaboration are core values of an effective government, 
particularly as it involves scientific agencies.
    Openness, however, does not come without risk. Many of the 
technologies developed and utilized by NASA are just as useful 
for military purposes as they are for civilian space 
applications. While our Nation's defense and intelligence 
communities guard their front door and prevent network 
intrusions, they could steal or corrupt sensitive information. 
NASA could essentially become an unlocked back door without 
persistent vigilance.
    Information security concerns at NASA are not limited to 
non-proliferation. There is a serious economic competitiveness 
aspect as well. The loss or theft of NASA technologies could 
compromise U.S. innovation and curtail significant future 
commercial activities that bolster our economy. In order to 
ensure that NASA does not become the weak underbelly that 
allows enemies and competitors to access sensitive 
technologies, we have to make sure that NASA has the necessary 
authorities to protect that information.
    The NASA Office of the Inspector General has monitored the 
agency's cybersecurity for over a decade, issuing dozens of 
reports and recommendations. To NASA's credit, they have taken 
action to address these recommendations in a timely fashion by 
clarifying the role of the Headquarters Chief Information 
Officer, realigning the agency's other CIOs under that office, 
setting up the security operations center or SOC, and improving 
integration and visibility. Despite this progress, the threat 
to NASA's information security is persistent and ever changing. 
Unless NASA is able to continuously innovate and adapt, their 
data, systems, and operations will continue to be endangered.
    These are not simply bureaucratic matters that have no real 
world impact or theoretical possibilities with little chance of 
occurring. As the Inspector General points out in his 
testimony, NASA has experienced 5,408 computer security 
incidents in 2010 and 2011. That is a bunch. These intrusions 
resulted in the installation of malicious software or 
unauthorized access which caused significant disruptions to 
mission operations, the theft of export-controlled data, and 
technologies, and cost the agency more than $7 million.
    Just last year the theft of an encrypted NASA laptop 
resulted in the loss of algorithms used to command and control 
the International Space Station. Similarly, the U.S. China 
Economic and Security Review Commission recently noted in its 
annual report to Congress that the Terra and Landsat-7 
satellites have, ``have each experienced at least two separate 
instances of interference apparently consistent with cyber 
activities against their command and control systems.''
    The fact that NASA is a high-profile target should come as 
no surprise. What is astonishing, however, is the fact that 
they are such a big target. NASA manages approximately 3,400 
individual websites. For context, there are approximately 4,000 
websites throughout the rest of the government. Simply 
surveying this attack profile is a challenge, but defending it 
presents even more difficulties.
    Adding to this complexity are differing security profiles 
for NASA's Centers, Mission Directorates, and institutional 
capabilities. Despite the challenge, it is still imperative 
that NASA conduct a thorough agency-wide risk assessment and 
develop a corresponding mitigation strategy in a timely fashion 
as recommended by the NASA IG last March.
    I look forward to our witnesses' testimony and hope that we 
can all work together to ensure that our Nation's space agency 
can securely support and appropriately protect cutting edge 
research, collaborative science, and mission operations.
    [The prepared statement of Dr. Broun follows:]

         Prepared Statement of Subcommittee Chairman Paul Broun

    The topic of cybersecurity is certainly hot these days. As 
Washington debates the government's appropriate role in private-sector 
cybersecurity activities, we should remember that the government is 
already responsible for securing its own networks and information--a 
task that it has executed with mixed success.
    While the defense and intelligence communities take great steps to 
protect data and operations from theft and corruption, often times 
civil agencies are not as vigilant. In many instances, this is for good 
reason. Transparency, coordination, and collaboration are core values 
of an effective government, particularly as it involves scientific 
agencies.
    Openness, however, does not come without risk. Many of the 
technologies developed and utilized by NASA are just as useful for 
military purposes as they are for civil space applications. While our 
nation's defense and intelligence communities guard the ``front door'' 
and prevent network intrusions that could steal or corrupt sensitive 
information, NASA could essentially become an unlocked ``back door'' 
without persistent vigilance.
    Information security concerns at NASA are not limited to non-
proliferation. There is a serious economic competitiveness aspect as 
well. The loss or theft of NASA technologies could compromise U.S. 
innovation and curtail significant future commercial activities that 
bolster our economy. In order to ensure that NASA does not become the 
weak underbelly that allows enemies and competitors to access sensitive 
technologies, we have to make sure that NASA has the necessary 
authorities to protect that information.
    The NASA Office of the Inspector General has monitored the Agency's 
cyber security for over a decade, issuing dozens of reports and 
recommendations. To NASA's credit, they have taken action to address 
those recommendations in a timely fashion by clarifying the role of the 
Headquarters Chief Information Officer, realigning the Agency's other 
CIOs under that office, setting up the Security Operations Center 
(SOC), and improving integration and visibility. Despite this progress, 
the threat to NASA's information security is persistent, and ever 
changing. Unless NASA is able to continuously innovate and adapt, their 
data, systems, and operations will continue to be endangered.
    These are not simply bureaucratic matters that have no real-world 
impact, or theoretical possibilities with little chance of occurring. 
As the Inspector General points out in his testimony, NASA experienced 
5,408 computer security incidents in 2010 and 2011. These intrusions 
resulted in the installation of malicious software or unauthorized 
access which caused significant disruptions to mission operations, the 
theft of export-controlled data and technologies, and cost the Agency 
more than $7 million.
    Just last year, the theft of an unencrypted NASA laptop resulted in 
the loss of algorithms used to command and control the International 
Space Station. Similarly, the U.S. China Economic and Security Review 
Commission recently noted in its annual report to Congress that the 
Terra and Landsat-7 satellites ``have each experienced at least two 
separate instances of interference apparently consistent with cyber 
activities against their command and control systems.''
    The fact that NASA is a high profile target should come as no 
surprise. What is astonishing, however, is the fact that they are such 
a big target. NASA manages approximately 3,400 individual websites. For 
context, there are approximately 4000 websites throughout the rest of 
the government. Simply surveying this attack profile is a challenge, 
but defending it presents even more difficulties.
    Adding to this complexity are differing security profiles for 
NASA's Centers, Mission Directorates and institutional capabilities. 
Despite the challenge, it is still imperative that NASA conduct a 
thorough Agency-wide risk assessment and develop a corresponding 
mitigation strategy in a timely fashion as recommended by the NASA IG 
last March.
    I look forward to our witnesses' testimony, and hope that we can 
all work together to ensure that our nation's space agency can securely 
support and appropriately protect cutting edge research, collaborative 
science, and mission operations.

    Chairman Broun. Now I recognize Ranking Member Tonko from 
New York for his opening statement for five minutes.
    Mr. Tonko. Thank you, Mr. Chair, and thank you to our two 
witnesses, to our Chief Information Officer Cureton, and to our 
Inspector General Martin. Thank you for joining us.
    I want to thank you, Mr. Chair, for calling this hearing, 
and again, extend a welcome to our two distinguished witnesses 
this afternoon. Inspector General Martin has been getting high 
marks for the work of his office, and Ms. Cureton should be 
congratulated for being willing to take on a tough job that the 
country needs to see done well.
    Twice in 2008, on-earth observation satellite, and earth 
observation satellite managed by NASA's Goddard Spaceflight 
Center experienced several minutes of interference that 
prevented NASA from communicating with the spacecraft. The 
events were indicative of an international cyber attack, and 
the techniques were used, and I quote, ``consistent with the 
authoritative Chinese military writings,'' according to a 
report by the U.S. China Economic and Security Review 
Commission.
    The report did not attribute the specific instances against 
the NASA satellites to China, but the implications were clear. 
NASA's spacecraft may be vulnerable to acts of cyber attack.
    In both instances involving NASA's Terra Earth Observation 
Satellite, the report concluded, and I quote, ``The responsible 
party achieved all steps required to command the satellite but 
did not issue commands.''
    Cyber attacks against NASA are nothing new. Over the past 
decade both American citizens and foreign nationals have 
penetrated the agency's cyber defenses, installed malicious 
software, and stolen scientific security and other data. These 
threats have come from foreign nationals in China, Great 
Britain, Italy, Nigeria, Portugal, Romania, Russia, Turkey, and 
Estonia. Just last month the Romanian national who had 
allegedly hacked into a NASA computer server and posted 
sensitive satellite data he acquired online was arrested by 
Romanian officials. Last November the NASA Office of Inspector 
General, along with the FBI, announced charges against six 
Estonian nationals and one Russian national. They infected NASA 
and other computers with malware that alerted the settings of 
more than four million infected computers, sending internet 
searches on them to specific websites, generating more than $14 
million in fraudulent advertising fees for the cyber criminals.
    The number of potential threats is expanding rapidly. A 
recent Cisco System study found that there were an estimated 
12.5 billion electronic devices capable of connecting to the 
internet in 2010. This number will increase to approximately 25 
billion in 2015, and an astounding 50 billion by 2020. Given 
this continued expansion of the computer communications 
networks, organizations such as NASA will face a digital 
battlefield of constantly-evolving points of attack and new 
efforts to exploit weaknesses.
    The challenge in successfully addressing cybersecurity 
issues is particularly difficult at NASA. NASA owns a little 
less than a half of the United States Government's non-defense 
websites. There are approximately 3,400 NASA-controlled 
websites, and nearly 1,600 of these are linked to the outside 
world. There are an estimated 176,000 individual IP addresses 
assigned to NASA's IT systems and IT networks.
    NASA also possesses more than 120,000 computer or related 
devices located at its centers and facilities that are 
connected to the agency's IT networks. This huge system of 
nodes and networks presents enormous IT security challenges and 
potential IT vulnerabilities to the agency.
    Over the past two years NASA reported more than 5,400 
computer security intrusions that resulted in the installation 
of malicious software or unauthorized access to NASA's computer 
systems. These cyber threats pose unique safety and security 
concerns to NASA. NASA's IT systems control spacecraft, 
including the Hubble Space Telescope and International Space 
Station. They collect and process scientific data and contain 
records on a wide array of technologically sophisticated 
intellectual property. These are all attractive targets for 
cyber attack.
    Yet NASA cannot just take those systems off the internet to 
make them secure because they connect its thousands of 
scientists, engineers, and other employees around the country 
to each other, and they connect NASA's human and information 
resources to the rest of the world.
    Unfortunately, NASA has a poor history of addressing 
cybersecurity threats. Insufficient efforts have been made in 
the past to take appropriate actions to confront and correct 
internal agency deficiencies. For example, the IG has 
reinvestigated cyber-related issues it had identified in prior 
reports only to find the original weaknesses still uncorrected.
    These failures over time have exacerbated the agency's 
vulnerabilities. They certainly complicate efforts by the new 
leadership at NASA to address cybersecurity quickly and 
effectively. NASA's IG has found that the agency does not have 
an IT security configuration baseline across the agency. In 
other words, it is unclear what NASA's IT security is supposed 
to look like because there is no diagram of what it does look 
like.
    In addition, the IG has found that the agency's 
vulnerability management practices have drastically 
underestimated the cybersecurity threats and vulnerabilities 
NASA faces, and the agency lacks a complete, up-to-date 
inventory of all of its IT components.
    Clearly it is easier to protect your home from a potential 
intruder if you know how many doors you have and where they are 
located. NASA does not appear to possess an accurate blueprint 
of its own house's IT infrastructure. Without that NASA cannot 
ensure that every potential gateway into the agency is 
monitored and effectively protected.
    My comments are not specifically directed at NASA's Office 
of the Chief Information Officer or Ms. Cureton, NASA's Chief 
Information Officer, who is testifying before us today. In 
fact, I hope my statement makes clear that I believe the 
problems with cybersecurity at NASA are many years in the 
making, and Ms. Cureton has had limited time to set things 
right.
    I am also aware that the CIO at NASA has limited authority 
to impose cybersecurity solutions across the entire NASA 
enterprise of contractors, centers, and mission directorates. 
There seems to be a gap between the scope of your 
responsibility and the scope of your authority.
    NASA's IT vulnerabilities must be identified and closed. 
Speed is critical in this context. If there are institutional 
or financial stumbling blocks that stand in the way of 
completing these critical tasks, then I hope our witnesses will 
provide constructive suggestions to address them. The committee 
is prepared to work with NASA to help close these gaps. I 
believe this is an important subject, and I look forward to 
hearing from our witnesses.
    Thank you, Mr. Chair.
    [The prepared statement of Mr. Tonko follows:]

    Prepared Statement of Subcommittee Ranking Member Paual D. Tonko

    Thank you for calling this hearing Mr. Chairman, and I want to 
extend a welcome to our two distinguished witnesses this morning. 
Inspector General Martin has been getting high marks for the work of 
his office and Ms. Cureton should be congratulated for being willing to 
take on a tough job that the country needs to see done well.
    Twice in 2008 an earth observation satellite managed by NASA's 
Goddard Space Flight Center experienced several minutes of interference 
that prevented NASA from communicating with the spacecraft. The events 
were indicative of an intentional cyber attack and the techniques used 
were quote, ``consistent with authoritative Chinese military 
writings,'' according to a report by the U.S.- China Economic and 
Security Review Commission. The report did not attribute the specific 
instances against the NASA satellites to China but the implications 
were clear: NASA's spacecraft may be vulnerable to acts of cyber 
attack. In both instances involving NASA's Terra Earth Observation 
Satellite (EOS), the report concluded--quote: ``The responsible party 
achieved all steps required to command the satellite but did not issue 
commands.''
    Cyber attacks against NASA are nothing new. Over the past decade 
both American citizens and foreign nationals have penetrated the 
agency's cyber defenses, installed malicious software and stolen 
scientific, security and other data. These threats have come from 
foreign nationals in China, Great Britain, Italy, Nigeria, Portugal, 
Romania, Russia, Turkey and Estonia. Just last month a Romanian 
national who had allegedly hacked into a NASA computer server and 
posted sensitive satellite data he acquired on-line was arrested by 
Romanian officials. Last November, the NASA Office of Inspector 
General, along with the FBI announced charges against six Estonian 
nationals and one Russian national for infecting NASA and other 
computers with malware that secretly altered the settings of more than 
four million infected computers sending Internet searches on those 
computers to specific websites generating more than $14 million in 
fraudulent advertising fees for the cyber criminals.
    The number of potential threats is expanding rapidly. A recent 
Cisco Systems study found that there were an estimated 12.5 billion 
electronic devices capable of connecting to the Internet in 2010. This 
number will increase to approximately 25 billion in 2015 and an 
astounding 50 billion by 2020. Given this continued expansion of 
computer communications networks, organizations such as NASA will face 
a digital battlefield of constantly evolving points of attack and new 
efforts to exploit weaknesses.
    The challenge in successfully addressing cyber-security issues is 
particularly difficult at NASA. NASA owns a little less than half of 
the U.S. government's non-Defense web-sites. There are approximately 
3,400 NASA controlled web-sites and nearly 1,600 of these are linked to 
the outside world. There are an estimated 176,000 individual IP 
addresses assigned to NASA's IT systems and networks. NASA also 
possesses more than 120,000 computer or related devices located at its 
centers and facilities that are connected to the Agency's IT networks. 
This huge system of nodes and networks presents enormous IT security 
challenges and potential IT vulnerabilities to the Agency. Over the 
past two years NASA reported more than 5,400 computer security 
intrusions that resulted in the installation of malicious software or 
unauthorized access to NASA's computer systems.
    These cyber threats pose unique safety and security concerns to 
NASA. NASA's IT systems control spacecraft, including the Hubble Space 
Telescope and International Space Station, collect and process 
scientific data, contain records on a wide-array of technologically 
sophisticated intellectual property. These are all attractive targets 
for cyber-attack. Yet NASA cannot just take their systems off the 
internet to make them secure because they connect its thousands of 
scientists, engineers and other employees around the country to each 
other and connect NASA's human and information resources to the rest of 
the world.
    Unfortunately NASA has a poor history of addressing cybersecurity 
threats. Insufficient efforts have been made in the past to take 
appropriate actions to confront and correct internal agency 
deficiencies. For example, the IG has re-investigated cyber-related 
issues it had identified in prior reports only to find the original 
weaknesses still uncorrected. These failures over time have exacerbated 
the agency's vulnerabilities. They certainly complicate efforts by the 
new leadership at NASA to address cybersecurity quickly and 
effectively.
    NASA's IG has found that the Agency does not have an IT security 
configuration baseline across the agency. In other words, it is unclear 
what NASA's IT security is supposed to look like because there is no 
diagram of what it does look like. In addition, the IG has found that 
the Agency's vulnerability management practices have drastically 
underestimated the cyber-security threats and vulnerabilities NASA 
faces. And the Agency lacks a complete up-to-date inventory of all of 
its IT components.
    Clearly it is easier to protect your home from a potential intruder 
if you know how many doors you have and where they are located. NASA 
does not appear to possess an accurate blueprint of its own house's IT 
infrastructure. Without that NASA cannot ensure that every potential 
gateway into the Agency is monitored and effectively protected.
    My comments are not specifically directed at NASA's Office of the 
Chief Information Officer or Ms. Cureton, NASA's Chief Information 
Officer (CIO) who is testifying before us today. In fact, I hope my 
statement makes clear that I believe the problems with cybersecurity at 
NASA are many years in the making, and Ms. Cureton has had limited time 
to set things right. I am also aware that the CIO at NASA has limited 
authority to impose cybersecurity solutions across the entire NASA 
enterprise of contractors, Centers, and Mission Directorates. There 
seems to be a gap between the scope of your responsibility and the 
scope of your authority.
    NASA's IT vulnerabilities must be identified and closed. Speed is 
critical in this context. If there are institutional or financial 
stumbling blocks that stand in the way of completing these critical 
tasks then I hope our witnesses will provide constructive suggestions 
to address them. The Committee is prepared to work with NASA to help 
close these gaps.
    I believe this is an important subject and I look forward to 
hearing from our witnesses. Thank you Mr. Chairman.

    Chairman Broun. Thank you, Mr. Tonko. If there are Members 
who wish to submit additional opening statements, their 
statements will be added to the record at this point.
    Now at this time I would like to introduce our panel of 
witnesses. Ms. Linda Cureton, the Chief Information Officer at 
NASA, and the Honorable Paul K. Martin, the Inspector General 
of NASA.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which the Members of the Committee 
will have five minutes each to ask questions. Your written 
testimony will be included in the record of the hearing.
    Now, it is the practice of this subcommittee to receive 
testimony under oath. Do either of you have any objections to 
taking the oath? Both indicated by saying ``no'' and shaking 
their head side to side reflecting no. Let the record reflect 
such.
    If all of you would please stand and raise your right hand. 
Do you solemnly swear or affirm to tell the whole truth and 
nothing but the truth, so help you God? Thank you. You may be 
seated. Let the record reflect that the witnesses participating 
have taken the oath.
    Now I recognize our first witness, Ms. Cureton. You have 
five minutes.

                 TESTIMONY OF LINDA Y. CURETON,

                   CHIEF INFORMATION OFFICER,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Ms. Cureton. Chairman Broun and Members of the 
Subcommittee, thank you for the opportunity to appear before 
you to discuss the state of information technology security at 
NASA.
    Today NASA professionally plans, builds, and practices IT 
security to ensure integrity, availability, and confidentiality 
of NASA's critical data and IT assets. The challenge is to get 
ahead and stay ahead of cyber attackers who tend to be well-
resourced, exhibit varying levels of sophistication, and are 
highly motivated. The pace of technological changes such as 
cloud computing, social networking, and mobile computing modify 
the landscape and compound the cybersecurity challenges.
    NASA's Information Resources Management Strategic Plan 
outlines strategic goals and objectives to provide cost-
effective agency security that safeguards and protects 
information and information systems. We are determined to 
improve NASA's capability to predict, prevent, and effectively 
contain potential IT security incidents. Our motivation is 
driven by the need to protect mission information targeted by 
nation states, cyber criminals, and hackers, predict rather 
than react to cyber threats, and create an adaptive agency 
security posture that supports increased interoperability, 
mobility, and innovation.
    NASA's Security Operation Center recorded and categorized 
1,867 cybersecurity incidents in fiscal year 2011. Analysis of 
those cyber incidents led to additional patching, vulnerability 
management, communication, and user training and awareness.
    Building a truly successful security program requires 
independent evaluation and honest appraisal. The NASA Office of 
Inspector General IT Audit Staff continuously and aggressively 
review NASA's IT security program. Over the past several years 
the OIG has conducted audits of NASA's IT systems, 
applications, and IT practices. They identified 
vulnerabilities, threats, and risks to NASA's IT 
infrastructure. In their last semi-annual report to Congress 
the OIG noted 37 open IT security audit recommendations, 
calling for NASA to identify internet accessible computers on 
mission networks, conduct security assessments of mission 
networks, mitigate risks on mission networks, implement 
continuous monitoring across the IT infrastructure, improve 
vulnerability scanning, reduce network vulnerabilities, improve 
asset management, improve configuration management, update 
policies and procedures.
    Sixteen of the OIG recommendations have been closed, and a 
corrective action plan has been implemented to mitigate the 
remaining open recommendations. NASA has accomplished the 
following under the plan: Inventory IT devices and security 
configurations agency wide, scanned for vulnerabilities on 
internet-connected devices, remediated discovered deficiencies, 
conducted third-party external assessments of NASA networks to 
determine website vulnerabilities, introduced new technologies 
to capture and contain cyber attacks, analyzed approximately 
130,000 connected devices to assess vulnerabilities and 
security patch status. Entered a two-year agreement with the 
Department of Energy for penetration testing of mission 
networks, conducted strengths, weaknesses, opportunities, and 
threat assessments to improve strategic alignment of enterprise 
IT security services, standardized IT security incident 
response procedures, and consolidated contracts to provide 
streamlined IT service management and delivery through the IT 
Infrastructure Integration Program, I3P.
    Finally, NASA remains committed to continued improvement of 
the IT security posture as the NASA IT Security Program is 
transforming and maturing.
    Thank you.
    [The prepared statement of Ms. Cureton follows:]

              Prepared Statement of Ms. Linda Y. Cureton,
                    Chief Information Officer, NASA

[GRAPHIC] [TIFF OMITTED] T2919.011

[GRAPHIC] [TIFF OMITTED] T2919.012

[GRAPHIC] [TIFF OMITTED] T2919.013

[GRAPHIC] [TIFF OMITTED] T2919.014

    Chairman Broun. Thank you, Ms. Cureton.
    I now recognize our next witness, Mr. Martin, for five 
minutes.

           TESTIMONY OF THE HONORABLE PAUL K. MARTIN,

       INSPECTOR GENERAL, NATIONAL AERONAUTICS AND SPACE 
                         ADMINISTRATION

    Mr. Martin. Thank you, Mr. Chairman. Chairman Broun, 
Ranking Member Tonko, and Congressman, excuse me, Congresswoman 
Adams, thank you for the opportunity to testify at today's 
hearing about NASA's efforts to protect its information 
technology resources.
    As it has been pointed out, NASA's IT assets include more 
than 550 information systems that control spacecraft, collect 
and process scientific data, and enable NASA personnel to 
collaborate with contractors, academics, and members of the 
public around the world. NASA is a regular target of cyber 
attacks, both because of the large size of its networks and 
because those networks contain highly-sought after information.
    Moreover, some NASA systems house sensitive information, 
which, if lost or stolen, could result in significant financial 
loss, adversely affect national security, or significantly 
impair our Nation's technological advantage.
    At the same time NASA's statutory mission to share its 
scientific information presents heightened IT security 
challenges because the agency's connectivity with outside 
organizations provide cyber criminals with a larger target 
compared to many other government agencies.
    In 2010 and 2011, NASA reported 5,408 computer security 
incidents that resulted in the installation of malicious 
software on or unauthorized access to its systems. These 
incidents ranged from individuals testing their hacking skills 
to well-organized criminal enterprises seeking to exploit 
NASA's systems for profit to intrusions that may have been 
sponsored by foreign intelligence services. Taken together 
these intrusions have affected thousands of NASA computers, 
caused significant disruptions to mission operations, and 
resulted in the theft of export controlled and otherwise 
sensitive data.
    The OIG devotes substantial resources to examining NASA's 
efforts to protect its IT systems. Over the past five years we 
have issued 21 audit reports containing 69 IT-related 
recommendations. To date all but 18 have been closed.
    In addition, the OIG has conducted more than 16 
investigations of breaches of NASA's networks, several of which 
have resulted in the arrest of individuals as has been pointed 
out in the U.S., China, Great Britain, Italy, Nigeria, Romania, 
Turkey, and Estonia.
    My written statement discusses in detail five issues that 
we believe constitute NASA's most pressing challenges in the 
admittedly-difficult task of protecting the agency's IT 
information from loss or theft. Briefly, these challenges are, 
number one, lack of full awareness of agency-wide IT security 
posture. NASA's IT assets generally fall into two categories; 
institutional systems and networks that support administrative 
functions such as budgeting and human resources and mission 
systems that support the agency's aeronautics, science, and 
space programs. While the CIO has the ability to implement 
security programs for NASA's institutional systems, she cannot 
fully account for or ensure that the agency's mission assets 
comply with appropriate IT security policies.
    Number two, shortcomings in implementing continuous 
monitoring. NASA has not fully transitioned from its historic 
snapshot approach for certifying the security of its IT systems 
to an approach that relies on a more comprehensive program of 
ongoing monitoring.
    Number three, the slow pace of inscription. NASA has been 
very slow to implement full-disk encryption on its notebook 
computers and other mobile devices, exposing sensitive 
information to unauthorized disclosure when these devices are 
lost or stolen. OMB has reported a government-wide encryption 
rate for these devices of 54 percent. In contrast, at the 
beginning of this month only one percent of NASA's portable 
devices have been encrypted.
    Number four, the ability to combat sophisticated cyber 
attacks. Increasingly, NASA has become a target of a 
sophisticated form of cyber attack known as an advanced 
persistent threat or APT. In fiscal year 2011, alone NASA 
reported it was the victim of 47 such attacks with 13 
successfully compromising agency systems.
    And number five, transition to cloud computing. While cloud 
computing promises significant cost savings, NASA must 
carefully weigh potential risks such as loss or compromise of 
its data posted on the cloud.
    This concludes my remarks. I would be pleased to answer any 
questions.
    [The prepared statement of Mr. Martin follows:]

          Prepared Statement of The Honorable Paul K. Martin,
                        Inspector General, NASA

[GRAPHIC] [TIFF OMITTED] T2919.015

[GRAPHIC] [TIFF OMITTED] T2919.016

[GRAPHIC] [TIFF OMITTED] T2919.017

[GRAPHIC] [TIFF OMITTED] T2919.018

[GRAPHIC] [TIFF OMITTED] T2919.019

[GRAPHIC] [TIFF OMITTED] T2919.020

[GRAPHIC] [TIFF OMITTED] T2919.021

[GRAPHIC] [TIFF OMITTED] T2919.022

[GRAPHIC] [TIFF OMITTED] T2919.023

[GRAPHIC] [TIFF OMITTED] T2919.024

    Chairman Broun. Thank you, Mr. Martin. You were dead on 
exactly five minutes. I appreciate that, and Ms. Cureton, you 
were great, too, so I appreciate you all's expediency in 
getting through this process. I thank you all for your 
testimony.
    Reminding Committee Members that committee rules limit 
Members' questions to five minutes per round of questions. I am 
going to defer the normal chair's starting the round of 
questions. I am going to recognize Ms. Adams because she has a 
meeting to go to, so Ms. Adams, you are recognized for five 
minutes.
    Mrs. Adams. Thank you, Mr. Chairman.
    Mr. Martin, you referenced in your testimony a 2010, audit 
where you discovered only 24 percent of mission network 
computer were monitored for critical software patches and only 
62 percent were monitored for technical vulnerabilities. 
Additionally, you mentioned that only one percent, again, of 
NASA's portable devices and laptops are encrypted.
    Is this negligence by the CIO's Office, or is there another 
explanation as to why this is not being done?
    Mr. Martin. I don't think it is negligence by the Office of 
the CIO, and you can ask the CIO that question. However, it is 
disturbing. Certainly the encryption rate of one percent is 
very disturbing because as we have discussed here NASA's mobile 
computing devices contain very sensitive information.
    Mrs. Adams. Right, and your office discovered in December 
of 2010 that NASA failed to properly sanitize excess Shuttle 
computers and hard drives and that at least ten had been 
released to the public with sensitive data on them.
    Did you recover any of these improperly-released computers, 
and what has NASA done to ensure this doesn't happen in the 
future?
    Mr. Martin. Again, our auditors during that actually were 
able, during the conduct of an audit, and again, this was not a 
criminal investigation but an audit, the auditors caught what 
was supposed to have been a sanitized hard drive, and we 
prevented that and gave it back to the agency. This was 
troubling. There were inconsistent procedures at the four NASA 
centers that we went to for sanitizing excess Shuttle 
equipment, and this was very troubling.
    Mrs. Adams. Ms. Cureton, according to the IG between April, 
2009, and April, 2011, NASA reported 48 agency mobile computing 
devices with sensitive data and even some including export 
control and a third-party intellectual property on them stolen. 
How many of these devices were encrypted, and have any of them 
been recovered?
    Ms. Cureton. I am sorry I don't have the specific details 
about those devices, but one of the things that we have done is 
work closely with our desktop service provider to make sure 
that the devices such as the laptops and mobile devices have 
the appropriate encryption.
    I mentioned in my opening statement that we recently 
awarded our IT Infrastructure Programs, I3P, and the key 
critical contract and program that needed to do that was 
awarded in December. We have developed a plan for accelerating 
our encryption of devices, and we have prioritized encryption 
of laptop and other mobile devices.
    Mrs. Adams. How many of the 5,400 attacks against NASA in 
the last two years have originated from those devices or 
information that was available on those devices? Do you know?
    Ms. Cureton. I don't have the exact number, but generally 
most of the attacks are sourced through our websites and 
vulnerabilities through there. With the large number of 
websites that we do have it creates a large attack surface 
where attackers can easily get in and exploit things if they 
are not appropriately protected.
    So our biggest risk is the websites, and the mobile devices 
do not represent a significant amount of risk in terms of what 
we have seen.
    Mrs. Adams. Has NASA's relationships with contractors and 
other third parties been affected by the lack of security by 
what we are hearing today?
    Ms. Cureton. Excuse me? Has it been effective or----
    Mrs. Adams. Affected.
    Ms. Cureton. We work closely with our industry partners. We 
work through organizations like the American Council of 
Technology, the Information Advisory Council, and another 
organization called the Cyberspace Intelligence Association or 
Cyber Fajitas and Margaritas, and we work through them so we 
have a safe forum for exchanging information and getting 
information flowing freely between industry partners about what 
we can do to jointly protect our common threats.
    Mrs. Adams. So you are in constant contact and conversation 
with those contractors and third parties because I would think 
they would be concerned about their information, intellectual 
property being stolen.
    Ms. Cureton. Yes, and also we are concerned about 
vulnerabilities that we present to their networks and they 
present to ours.
    Mrs. Adams. Thank you. I yield back.
    Chairman Broun. Thank you, Ms. Adams.
    Now recognize Mr. Tonko for five minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Mr. Martin, you have suggested that NASA may not gain full 
control of its IT security problems until the CIO's Office has 
the authority to ensure IT security policies are enforced 
across the entire agency. Would you please expand on how the 
CIO's authority is limited and why that raises hurdles to 
effective cyber security?
    Mr. Martin. Certainly. I am not sure we used the word 
authority. I think the CIO under certainly the Clinger-Cohen 
Act and NASA policies has the authority. She does not have the 
operational control as I indicated in my opening remarks over 
the mission networks at NASA, and frankly that is where we are 
seeing the bulk of the attacks coming from are the mission 
networks that are in the control of the mission directorates or 
based at the centers. She doesn't control the funding for 
those, and Linda can speak to that. She doesn't control the 
funding, and as we have all seen in Washington, when you don't 
control the funding, you have a difficult time getting folks' 
full attention.
    Mr. Tonko. Thank you, and Ms. Cureton, to illustrate the 
limits of your authority, can you share with us just what 
proportion of NASA's IT budget you directly control?
    Ms. Cureton. The fiscal year 2013 requested level is at 
approximately 1.4 billion. Of that I am allocated a portion of 
that, and it is 152 million. That allocation is given to me by 
another directorate, so I am going to get whatever I am 
allocated from that directorate, and the rest of it is 
controlled either by CIOs at centers, a relatively small 
portion of it, and I will say that the center CIOs do report to 
me, but their budgets report to their center directors. And 
then the rest of the $1.4 billion budget is controlled by 
missions and programs.
    Mr. Tonko. Interesting. Ms. Cureton, if you were given more 
authority over the IT budget and over the mission directorates, 
how would you use that to enhance cybersecurity policies?
    Ms. Cureton. I would attempt to consolidate many of our 
networks. One of the challenges that we do have, especially as 
it relates to the funding required to implement these 
safeguards, there are many networks that need to be 
safeguarded, many doors, many gates to guard. And there needs 
to be a consolidation of the local area networks that exist at 
the agency so that safeguarding these networks is a more 
practical effort.
    So I would definitely do that. I would prioritize on 
addressing the vulnerabilities and risks that exist on our 
networks and then finally address the proliferation of websites 
to the extent that it makes it difficult for us to secure our 
networks. There is a strong need for NASA to have networks and 
internet technologies to collaborate and share information with 
our partners, but in looking at some of the innovative 
abilities, innovative solutions that exist now, there are more 
modern ways to securely collaborate with partners and still 
accomplish our mission.
    Mr. Tonko. And that ought to be, I would think, a high 
priority within the operations that you serve.
    Ms. Cureton. Correct.
    Mr. Tonko. Absent more authority, how can you assure us 
that you can build a bulletproof cybersecurity program for 
NASA?
    Ms. Cureton. I am committed to work diligently with the 
goals that I have set before the Administrator. I have a very 
capable IT security staff, my deputy CIO for IT security. We 
work closely as we can with missions. We work to build 
credibility, to communicate, to improve user awareness. We 
continue to do those things and continue to attempt to make 
progress in breaking down some of the barriers while closing 
some of the loopholes that we do have.
    Mr. Tonko. Thank you, and Mr. Martin, do you believe 
cybersecurity can be effectively established at NASA absent 
consolidation of authority?
    Mr. Martin. Even with consolidation of authority there 
needs to be a new mindset and a new way to operate. Again, 
having control solely over the IT security apparatus for just 
the institutional side of the house is woefully inadequate to 
securing NASA's very important information.
    Mr. Tonko. Thank you. Thank you very much.
    Mr. Chair, I yield back.
    Chairman Broun. Thank you, Mr. Tonko. I yield myself five 
minutes now.
    Last March the NASA IG issued a report that called for NASA 
to conduct an agency-wide IT risk assessment. In that report 
the CIO committed to developing and implementing a strategy for 
conducting this risk assessment by August 31, 2011.
    First, Mr. Martin, what is the status of this effort, and 
do you know of a firm date where we can expect that.
    Mr. Martin. I think Ms. Cureton would probably know the 
exact date.
    Chairman Broun. I am going to ask her that next.
    Mr. Martin. I believe the date of August, 2011, has 
slipped, and NASA has asked until I believe November of this 
year to complete that action.
    Chairman Broun. Okay. Ms. Cureton. What is the status?
    Ms. Cureton. Yes. The date has slipped, and we have made a 
formal request for an extension.
    Chairman Broun. When are we going to have the report, and I 
mean, the risk assessment done and full accounting for what you 
are doing to implement that?
    Ms. Cureton. June, 2012.
    Chairman Broun. Absolutely, positively June, 2012. We keep 
slipping past these dates, and this committee would like to 
know when we can expect that.
    Ms. Cureton. I believe that I will make it. I am committed 
to make that happen. I can't say that there are things that 
won't happen that cause us to change our priorities, but it is 
an absolute priority for me, and I am committed to make sure 
that it happens.
    Chairman Broun. Well, certainly we need to have a way to 
implement this risk assessment. September of 2010 and December 
of 2011 the NASA IG issued reports recommending that NASA 
transition to a continuous monitoring approach for this IT 
system.
    Mr. Martin, what is the status of this effort?
    Mr. Martin. It is ongoing. I think NASA has made some 
significant strides. This is a whole new approach to monitoring 
the security of government systems, and you may be familiar 
with the FISMA, the Federal Information Security Management Act 
of a number of years back.
    Unfortunately, we have seen in the IG community it devolve 
into really somewhat of a less effective paper-driven exercise. 
And so there has been a move that has been promoted by OMB and 
the Department of Homeland Security to move more toward what is 
called continuous monitoring a more dynamic security oversight 
process because the IT systems that you are reviewing are 
dynamic and ever changing.
    So we assess NASA's move from the old static, what we call 
``snapshot'' system, once a year at this moment in time, do you 
have the policies, do you have the paperwork, as opposed to, 
``do those policies and paper mean anything, do they work,'' 
and moving to a continuous monitoring. NASA has made strides, 
but as we point out in our audit report, we found a couple 
significant areas where NASA needs to make significant efforts 
in order to have an effective continuous monitoring program.
    Chairman Broun. And you have made those recommendations to 
NASA?
    Mr. Martin. We absolutely have.
    Chairman Broun. Okay. Ms. Cureton, do you want to answer 
the question?
    Ms. Cureton. We committed to completing the activities, 
enable that in November, 2012. There are several steps that we 
need to make, one of them will be to have a more robust asset 
management program to have situational awareness of the 
configuration of the networks and the endpoint devices, and we 
believe that that should be essentially completed in the first 
quarter fiscal year 2013.
    Chairman Broun. And this is going to be a continuing 
monitoring process?
    Ms. Cureton. Yes.
    Chairman Broun. Okay. In 2011, NASA developed a governance 
model to streamline IT decision making. What role do the 
mission directorate senior officials, the subject matter 
experts that are responsible for mission success, play in the 
IT security decision making process, Ms. Cureton?
    Ms. Cureton. We have governance boards and working groups 
that have representation from each mission directorate, and we 
have enterprise architecture boards that have representations 
from the mission directorates. Our IT management board has 
representation from a mission directorate in terms of a mission 
directorate CIO. At the senior levels there is a mission 
support council that consists of myself, the assistant 
associate administrator for mission support, the associate 
administrator, the deputy associate administrator, and the CFO, 
and then report to the executive council, which consists of the 
administrator, the deputy administrator, and some of the others 
that I mentioned earlier.
    The representation from the directors and the centers would 
come from the administrator, the deputy administrator, and also 
through the associate administrator.
    Chairman Broun. Okay. My time has expired.
    I will now yield five minutes to Mr. Tonko.
    Mr. Tonko. Thank you, Mr. Chair.
    This is a question I will pose to both of our witnesses. 
What do you see as the biggest IT security threat facing NASA 
today? Would it be foreign governments, 16-year-old children in 
the United States, cyber criminals, groups like anonymous--is 
there any way for either of you to quantify the IT threats that 
NASA faces and what the actual impact of these threats have 
been to NASA?
    Mr. Martin. After you.
    Ms. Cureton. Thank you.
    Mr. Martin. You are welcome.
    Ms. Cureton. In saying big, big would be quantified as like 
the largest number of attacks or perhaps it could be a smaller 
number of attacks but a bigger impact. So it is hard to really 
say what is big, but certainly the impact is the advanced 
persistent threat in terms of what it means to our Nation's 
security and our Nation's future.
    But then big in terms of numbers tends to be more along the 
criminal side because there is opportunities to get financial 
information, personal identification from employees that could 
financially benefit hackers. And probably by numbers some of 
them appear like that, but by impact it is probably more along 
the lines of the advanced persistent threat that is probably 
attributable to nation states or organized crime.
    Mr. Tonko. Uh-huh. Mr. Martin.
    Mr. Martin. Thank you. I don't disagree with that 
assessment at all, but we have seen the whole gamut. We have 
seen the Swedish teenager bringing down NASA's super computer 
at Ames causing upwards of $6 million in damage for 
remediation. We have seen the criminal, sophisticated criminal 
enterprises. As we mentioned, we had six arrests in Estonia 
working with the Estonian National Police. That was primarily a 
financially-derived initiative, but once you are in the NASA 
systems, even if your goal is to redirect internet traffic, you 
know, for what they called internet fraud, click fraud, or more 
of an advertising scam, you have access into NASA's systems. 
You can sell that access to other folks who are after NASA-
sensitive information.
    So it really runs the gamut.
    Mr. Tonko. Thank you, and all NASA IT components are 
supposed to be identified in a database established by the 
CIO's Office, all the IT security enterprise data warehouse. 
The IG's audit found, I believe, that out of 289 NASA IT 
components they reviewed only 175 that were included in that 
database. The IG found that NASA's failure to maintain a 
complete, up-to-date inventory of IT components significantly 
diminishes its ability to develop and maintain a continuous 
monitoring program.
    Where do we take this from there?
    Ms. Cureton. So the first step would be to increase the 
number of assets that we do monitor, and that would be by 
increasing and improving our asset management program, and once 
we do that we are able to determine the configuration of those 
assets and maintain the right inventory of baseline 
configuration levels.
    And then finally, make sure that we are able to monitor 
each component of the network to look for intrusions and 
identify them as soon as possible.
    Mr. Tonko. Thank you, and many of the issues we are talking 
about here today have been endemic at NASA for at least the 
past decade. Can both of you please address that issue and tell 
us why you believe these IT security issues at NASA continue to 
occur, why it appears NASA management has had such a difficult 
time reigning in these issues and managing its IT security 
structure in a better format.
    Ms. Cureton. Me first? Okay. The most difficult part of 
addressing this is culture. We spend a lot of time focused in 
the technology part of it, which is really difficult, too, but 
culture is probably the number one impediment.
    IT security is considered a CIO's problem, but IT security 
is basically a mission problem. The information that the actors 
are looking for is mission information. They are looking for 
the information to get some advantage in terms of whatever the 
motives they have would dictate.
    And being more focused on the institutional side doesn't 
really protect where the biggest risk is, but being able to 
persuade the mission, the culture of the mission that they 
should include a culture of looking at IT security issues is a 
big challenge admittedly.
    And so as with working through any culture, it takes a long 
time to build the credibility to provide the impetus to change, 
to get critical mass that says, yes, we are going to do it and 
go forward, and so that process takes a long time, and it has 
taken a long time.
    Mr. Tonko. Anything?
    Mr. Martin. I think I would agree with that. I think if the 
goal is to have IT security at NASA more centralized in the 
CIO's Office, she would need a much larger stick than she 
currently has now.
    Mr. Tonko. Thank you, and I have exceeded my time, so, Mr. 
Chair, I yield back.
    Chairman Broun. Thank you, Mr. Tonko. I yield myself five 
minutes.
    The ``Wall Street Journal'' article on November 17, 2011, 
titled, ``China, U.S. Use Same Tracking Base,'' states that the 
Chinese entity, China satellite launch and tracking control 
general, part of PLA's General Armament Department, leases a 
ground station in Dongara, Western Australia that is run by a 
Swedish state-owned company called Swedish Space Corp SSC and a 
U.S. subsidiary that supports U.S. Air Force space surveillance 
satellites and NASA.
    According to a spokesman for Australia's Department of 
Innovation, Industry, Science, and Research, ``Australia did 
not consult the U.S. on the establishment of the SSC facilities 
or its customers.''
    Ms. Cureton, what insight does NASA have into the 
information security measures employed at foreign satellite 
ground stations, and do these foreign sites have a 
multinational presence present unique--do they present a unique 
challenge to NASA IT security?
    Ms. Cureton. Well, obviously we have to work within the 
constraints of what state and local authorities are there, but 
we do protect the nodes of our network that exist at foreign 
locations. I can't speak specifically to the article that you 
quote, but I will say that we do take the proper security 
precautions at foreign locations.
    Chairman Broun. That seems just to be kind of a roundabout 
way of losing our security. I hope you all look at the presence 
that these do present, because I think it does present a unique 
challenge to your all's security.
    The U.S. China Economic Security Review Commission issued 
an annual report last November that indicated that the Terra 
and Landsat-7 satellites experiences interference apparently 
consistent with cyber activities against their command and 
control systems.
    Ms. Cureton, who is currently responsible for ensuring data 
integrity and security for NASA satellite operations? Is it the 
CIO or mission directorates?
    Ms. Cureton. It is the mission directorates.
    Chairman Broun. How do we make sure that they stay secure? 
Do they stay there, or do we come back to your office or how 
do--tell us what you would recommend?
    Ms. Cureton. I believe that the mission directorates need 
to own the responsibility of security for their assets. One of 
the challenges is that I own the responsibility of securing 
other people's assets, and I own the responsibility of making 
them a priority according to somebody else's priority. So once 
the responsibility of securing mission networks and assets in 
this case properly resides with the proper management 
authority, I think we would see better responses.
    Chairman Broun. You would see some better responses across 
the board as far as I am concerned.
    What insight does the CIO have into contractor compliance 
with NASA IT security standards, and who is responsible for 
providing contractor information and security oversight, Ms. 
Cureton?
    Ms. Cureton. The responsibility would go to the owner of 
the contract. So if it is in the mission directorate, that is 
where it would be.
    Chairman Broun. Okay. Mr. Martin, do you have any 
suggestions or thoughts?
    Mr. Martin. I think what we do is we audit and we 
investigate. Because I think this is the fundamental issue 
facing IT security at NASA: are we going to have a CIO's Office 
and what structure would best implement a strong security 
function at NASA, because we have discussed the limited 
authority that she has over the institutional side of the house 
as opposed to the mission side of the house.
    So we have opened an audit that is going to look at the 
governing structure that NASA currently employs in its CIO 
Office, vis-`-vis its mission directorates to try to find where 
that balance, where the best balance of authority and 
responsibility would be.
    Chairman Broun. When will that audit be available for us?
    Mr. Martin. We have just begun it. I would think that we 
are probably looking nine months down the road.
    Chairman Broun. Well, please get it to us as quickly as you 
get it. This committee is very interested in hearing that.
    NASA has conflicting priorities when it comes to 
information management. On one hand it has to protect sensitive 
information associated with dual use, proprietary data from 
release, but on the other hand it has to facilitate scientific 
collaboration which requires open access and transparency.
    Ms. Cureton, how does the CIO manage these competing 
cultural priorities?
    Ms. Cureton. One of the key enablers of this is with our 
I3P Infrastructure Program. One of the contracts awarded was to 
SAIC to manage networks. We have many networks at NASA. We have 
wide area networks, and we have many, many local area networks. 
So the network service provider will be moving through the 
agency and assuming operational responsibility over existing 
networks. That will take some work in terms of working with 
mission directorates and looking at responsibilities where they 
are separated and where they are joint. And then once we do 
that then we are able to have an awareness of what is out 
there.
    Chairman Broun. Thank you, Ms. Cureton and Mr. Martin. I 
thank you all for you all's testimonies today. This is a huge 
issue. I see a tremendous vulnerability for a very sensitive 
underbelly of our own economic security as well as potential 
defense security through NASA. As I have stated before to both 
of you all, cybersecurity is extremely important to me as an 
individual, and I think it is important to Mr. Tonko and all of 
us here on this committee.
    I hope that we can find some way to make sure that we have 
better cybersecurity, IT security within the Department, and I 
am looking forward to working with both of you as we go forward 
and helping to develop a better security infrastructure within 
NASA. You all have been great.
    The Members of this Subcommittee may have additional 
questions for you all to answer, and we will ask you to respond 
to those in writing. In fact, I have a number myself that I 
will submit to you all, and I am sure all of us will probably 
do so. The record will remain open for two weeks for additional 
comments from Members.
    The witnesses are excused. I thank you all very much, and 
the hearing is now adjourned.
    [Whereupon, at 3:21 p.m., the Subcommittee was adjourned.]


                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Ms. Linda Y. Cureton, Chief Information Officer, NASA

[GRAPHIC] [TIFF OMITTED] T2919.025

[GRAPHIC] [TIFF OMITTED] T2919.026

[GRAPHIC] [TIFF OMITTED] T2919.027

[GRAPHIC] [TIFF OMITTED] T2919.028

[GRAPHIC] [TIFF OMITTED] T2919.029

[GRAPHIC] [TIFF OMITTED] T2919.030

[GRAPHIC] [TIFF OMITTED] T2919.031

[GRAPHIC] [TIFF OMITTED] T2919.032

[GRAPHIC] [TIFF OMITTED] T2919.033

[GRAPHIC] [TIFF OMITTED] T2919.034

[GRAPHIC] [TIFF OMITTED] T2919.035

[GRAPHIC] [TIFF OMITTED] T2919.036

[GRAPHIC] [TIFF OMITTED] T2919.037

                   Answers to Post-Hearing Questions
Responses by The Honorable Paul K. Martin, Inspector General, NASA

[GRAPHIC] [TIFF OMITTED] T2919.038

[GRAPHIC] [TIFF OMITTED] T2919.039

[GRAPHIC] [TIFF OMITTED] T2919.040

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
